                                                           U.S . OFF ICE OF PERSONNEL MANAGEMENT
                                                                  OFF ICE OF THE INSPECTOR GENERAL
                                                                                    OFF ICE OF AUDITS




Final Audit Report
S ubject:


                    AUDIT OF THE 2008 THROUGH 2010 

                       CALIFORNIA GOLD COAST 

                    COMBINED FEDERAL CAMPAIGNS 

                       CAMARILLO, CALIFORNIA 





                                                Report No. 3A-CF-OO-II -037


                                                 Date:        February 14. 20 1 2




                                                                   -CAUT I ON-
This l ud ll rfporl 11.:15 Mrn distributed 10 ,.' cdcral llffidib ~' ho Irt rupon~ibl r ror I ltt adm;nislra linn uf Iht au diled l)tO£l"1I m. T hi$ l udil
rr porl m ~y fonlain proprirlll')' dllla which is prOltNCd by .'cdentl.,,· (18 U.s.C. I90S). Therefore. whilt IhiJ lI udil Rporl is .~·.il. blc
und er Iht Ftttdom of In form a lion ,\ cl . nd madc Iv. il.blt III lh t pubti!: on Ih t O IG Inb pagr. n ulinn nntis 10 bf t).trci~d btforr
rdusing tht rrl"'tllO Iht gentfll l public u il may fonlllin proprietary inform alion 111M I IO'U rrdacled frum tht publicly distri buted ropy.
                                             UNITED STATES
                              OFFICE OF PERSONNEL MANAGEMENT
                                     WASJDNGTON. DC 204~5-1100


          O FFI CE OF' 

n i E [N SPECTOR GENERAL 





                                         AUDIT REPORT 




                             AUDIT OF THE 2008 THROUGH 2010 

                                CALIFORNIA GOLD COAST 

                             COMBINED FEDERAL CAMPAIGNS 

                                CAMARILLO, CALIFORNIA 



                Report No. 3A-CF-OO-1I-037               Date: Fe bruary 14 , 2 0] 2




                                                             Michael R. Esser
                                                             Assistant Inspector General
                                                               for Audits
                                            trNrrED STATES 

                                  OFFICE OF PERSONNEL MANAG EMl!';NT 

                                           WASBINGTOl'{. DC 3CUUI·l1oo 


       Of"'f'lCEOF
'rne If'iSPECTOR CE:NEAAL..




                                          EXECUTIVE SUMMARY 





                                 AUDIT OF THE 2008 THROUGH 2010 

                                    CALIFORNIA GOLD COAST 

                                 COMBINED FEDERAL CAMPAIGNS 

                                    CAMARILLO, CALIFORNIA 



                 Report No. 3A-CF-OO-II-037                           Date: February 1 4, 2012

         The Office ofthe Inspector General has completed an audit of the 2008 through 20 10 California
         Gold Coast Combined Federal Campaigns (CFC). The United Way of Ventura County
         (UWVC), located in Camarillo, California, served as the Principal Combined Fund Organization
         (PCFO) during the above stated campaigns. Our main objective was to determine if the
         California Gold Coast CFe was in compliance with Title 5, Code of Federal Regulations, Pan
         950 (5 CFR 950), including the responsibilities of both the PCFO and Local Federal
         Coordinating Comm ittee (LFCC). The audit identified 14 instances of non·compJiance with the
         regulations (5 CFR 950) governing the eFe and questions $114,161.

         A draft report of our findings was issued to both the PCFO and LFCC for review and corrunent
         on August 17, 201 1. However, no response was received from either party within the required
         time frame and after several attempts to obtain a response.

         As a result of difficulties encountered from the PCFO during the perfomlance of thi s audit and
         the lack of cooperation received following the issuance of the draft audit report. the Office of the
         Inspector General strongly suggests that the Office of the Combined Federal Campaign (aCFe)
         consider sanctions aQ.ainst the PCFO and the stripping of its ability to participate in the CFC in
         the future .

         Additionally, we suggest that the OCFC ensure that the LFCC understands its responsibilities as
         the conuninee charged with coordinating the campaign and determine if that committee has the
         time necessary to properly administer the campaign. If not, we sUQ.gest that the acre take steps
         to replace the LFCC "vith members that have the time and are willing to properly administer the
         campaign, or that the campaign be merged with another campaign that can administer it properly.
The following findings represent the results of our audit work as of the date of this report.

                                    AUDIT GUIDE REVIEW



•   Agreed-Upon Procedures Not in Compliance with the Audit Guide                       Procedural

    The Independent Public Accountant did not complete all of the agreed-upon procedures in
    accordance with the Audit Guide.

                           BUDGET AND CAMPAIGN EXPENSES

•   Expenses Charged to the Wrong Campaign                                                  $16,687

    The PCFO charged expenses related to the 2008 and 2010 CFC campaigns, totaling $16,687,
    to the 2009 CFC campaign.

•   PCFO Application Missing Required Language                                          Procedural

    The UWVC’s application to serve as PCFO did not include all of the specific language
    required by the regulations.

•   PCFO Solicitation                                                                   Procedural

    The solicitation for PCFO applications was not posted timely and was not open for a 

    minimum of 21 calendar days, as required by the regulations. 


•   Approval of Campaign Expense Reimbursement                                          Procedural

    The PCFO did not submit its expenses related to the 2009 campaign to the LFCC for 

    approval prior to reimbursement. 


                     CAMPAIGN RECEIPTS AND DISBURSEMENTS

•   Outstanding Disbursement Amount                                                         $92,940

    The PCFO did not properly allocate or account for CFC funds of the 2009 campaign, 

    resulting in an undistributed amount of $92,940. 


•   One-Time Disbursement Calculation                                                           $4,303

    The PCFO incorrectly calculated the one-time disbursement amounts for agencies and 

    federations receiving one-time disbursements from the 2009 campaign. 


•   Agency with No Disbursement                                                                  $231

    The PCFO failed to pay one agency of the 2009 campaign.

                                                 ii
•   Pledge Card Errors                                                               Procedural

    The PCFO incorrectly input four pledge cards in the pledge card database, leading to the
    CFC donor’s wishes not being honored.

•   Untimely Initial Campaign Disbursements                                          Procedural

    The PCFO did not make the first disbursement to its member agencies and federations by
    April, 1, 2010, as required by the regulations for the 2009 Campaign.

•   Incorrect Cutoff Procedures                                                      Procedural

    The PCFO incorrectly used February 1st as a cutoff date for incoming CFC payroll receipts.

•   Approval of One-Time Disbursements                                               Procedural

    The PCFO made one-time disbursements for the 2009 campaign without obtaining approval
    from the LFCC.

•   Untimely Designated and Undesignated Funds Reports and Donor Lists               Procedural

    The designated and undesignated funds reports and donor lists were not sent to the agencies
    and federations of the 2010 campaign by March 15, 2011, as required by the Federal
    regulations.

                                        ELIGIBILITY

•   Incomplete Agency and Federation Applications                                    Procedural

    The LFCC accepted six applications from agencies and federations which did not provide
    sufficient documentation to be accepted for participation in the CFC.

                                   PCFO AS A FEDERATION

Our review of the PCFO’s activities as a federation showed that it complied with the applicable
provisions of 5 CFR 950.

                                    FRAUD AND ABUSE

Our review of the PCFO’s anti-fraud policies and procedures indicated that they appeared
reasonably sufficient to detect and deter potential fraud and abuse activities.




                                               iii
                                                  CONTENTS


                                                                                                                          PAGE

       EXECUTIVE SUMMARY ............................................................................................. i



  I.   INTRODUCTION AND BACKGROUND ....................................................................1 


 II.   OBJECTIVES, SCOPE, AND METHODOLOGY ........................................................2 


III.   AUDIT FINDINGS AND RECOMMENDATIONS......................................................6 


       A.     AUDIT GUIDE REVIEW .....................................................................................6 


              1. Agreed-Upon Procedures Not in Compliance with the Audit Guide ..............6 


       B.     BUDGET AND CAMPAIGN EXPENSES ..........................................................8 


              1.   Expenses Charged to the Wrong Campaign ....................................................8 

              2.   PCFO Application Missing Required Language .............................................8 

              3.   PCFO Solicitation ............................................................................................9 

              4.   Approval of Campaign Expense Reimbursement...........................................10 


       C. CAMPAIGN RECEIPTS AND DISBURSEMENTS .............................................11 


              1.   Outstanding Disbursement Amount................................................................11 

              2.   One-Time Disbursement Calculation .............................................................12 

              3.   Agency with No Disbursement.......................................................................13 

              4.   Pledge Card Errors..........................................................................................13 

              5.   Untimely Initial Campaign Disbursements.....................................................14 

              6.   Incorrect Cutoff Procedures............................................................................15 

              7.   Approval of One-Time Disbursements...........................................................15 

              8.   Untimely Designated and Undesignated Funds Reports and Donor Lists......16 


       D.     ELIGIBILITY .......................................................................................................17 


              1. Incomplete Agency and Federation Applications...........................................17 


       E.     PCFO AS A FEDERATION.................................................................................19 


       F.     FRAUD AND ABUSE .........................................................................................19 


IV.    MAJOR CONTRIBUTORS TO THIS REPORT ..........................................................20 

                    I. INTRODUCTION AND BACKGROUND


INTRODUCTION



This report details the findings and conclusions resulting from our audit of the California Gold
Coast Combined Federal Campaigns (CFC) for 2008 through 2010. The audit was performed by
the Office of Personnel Management’s (OPM) Office of the Inspector General (OIG), as
authorized by the Inspector General Act of 1978, as amended.

BACKGROUND

The CFC is the sole authorized fund-raising drive conducted in Federal installations throughout
the world. In 2010, it consisted of 209 separate local campaign organizations located throughout
the United States, including Puerto Rico, the Virgin Islands, and foreign assignments. The
Office of the Combined Federal Campaign (OCFC) at OPM has the responsibility for
management of the CFC. This includes publishing regulations, memoranda, and other forms of
guidance to Federal offices and private organizations to ensure that all campaign objectives are
achieved.

The CFCs are conducted by a Local Federal Coordinating Committee (LFCC) and administered
by a Principal Combined Fund Organization (PCFO). The LFCC is responsible for organizing
the local CFC, determining the eligibility of local voluntary organizations, selecting and
supervising the activities of the PCFO, and acting upon any problems relating to a voluntary
agency’s noncompliance with the policies and procedures of the CFC. The PCFO is responsible
for training employee key-workers and volunteers; preparing pledge cards and brochures;
distributing campaign receipts; submitting to an extensive and thorough audit of its CFC
operations by an Independent Certified Public Accountant (IPA) in accordance with generally
accepted auditing standards; cooperating fully with the OIG audit staff during audits and
evaluations; responding in a timely and appropriate manner to all inquiries from participating
organizations, the LFCC, and the Director of OPM; and, consulting with federated groups on the
operation of the local campaign.

Executive Order Numbers 12353 and 12404 established a system for administering an annual
charitable solicitation drive among Federal civilian and military employees. Title 5 Code of
Federal Regulations Part 950 (5 CFR 950), the regulations governing CFC operations, sets forth
ground rules under which charitable organizations receive Federal employee donations.
Compliance with these regulations is the responsibility of the PCFO and the LFCC.
Management of the PCFO is also responsible for establishing and maintaining a system of
internal controls.

All findings from our previous audit of the campaign (Report Number 2A-CF-04-91-E6, dated
November 20, 1991) which covered the 1990 campaign year have been satisfactorily resolved.
The initial results of our audit were discussed with PCFO and LFCC officials during an exit
conference held on May 25, 2011. A draft report was provided to the PCFO and the LFCC for
review and comment on August 17, 2011. However, no response was received from either party.




                                               1

                II. OBJECTIVES, SCOPE, AND METHODOLOGY


OBJECTIVES

The primary purpose of our audit was to determine if the California Gold Coast CFC was in
compliance with 5 CFR 950, including the activities of both the PCFO and the LFCC. Our audit
objective for the 2008 campaign was:

   Audit Guide Review
   •		 To determine if the IPA completed the Agreed-Upon Procedures (AUP) as outlined in the
       CFC Audit Guide.

Additionally, our specific audit objectives for the 2009 and 2010 campaigns were as follows
(please note: not all objectives are related to 2010, see methodology section of this report for
more detail):

   Budget and Campaign Expenses
   •		 To determine if the PCFO solicitation, application, campaign plan, and budget were in
       accordance with the regulations.
   •		 To determine if the expenses charged to the campaign were actual, reasonable, allocated
       properly, approved by the LFCC, and did not exceed 110 percent of the approved budget.

   Campaign Receipts and Disbursements
   •		 To determine if the pledge card format was correct and if the pledge card report agrees
       with the actual pledge cards.
   •		 To determine if incoming pledge monies were allocated to the proper campaign year and
       that the net funds (less expenses) were properly distributed to member agencies and
       federations.
   •		 To determine if the member agencies and federations were properly notified of the
       amounts pledged to them and that donor personal information was only released for those
       who requested the release of information.

   Eligibility
   •		 To determine if the charity list (CFC brochure) was properly formatted and contained the
       required information; if the charitable organization application process was open for the
       required 30-day period; if the applications were appropriately reviewed, evaluated, and
       approved; if the applicants were notified of the eligibility decisions timely; and if the
       appeals process for denied applications was followed.

   PCFO as a Federation
   •		 To determine if the amounts received by the PCFO as a federation reconciled to those
       disbursed by the CFC; if the PCFO properly distributed funds to its federation members;
       if expenses charged by the PCFO (to its federation members) were documented properly;
       and if the disbursements made to the federation members were accurate.




                                                 2

   Fraud and Abuse
   •		 Determine what policies and procedures the PCFO has in place relating to detecting and
       preventing fraud and abuse and if they are adequate.

SCOPE AND METHODOLOGY

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based on the audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on the audit objectives.

The audit covered campaign years 2008 through 2010. The United Way of Ventura County,
located in Camarillo, California, served as the PCFO during the above stated campaigns. The
audit fieldwork was conducted at the offices of the PCFO from May 16 through 25, 2011.
Additional audit work was completed at our Cranberry, Pennsylvania, and Washington, D.C.
offices.

The California Gold Coast CFC received campaign pledges, collected campaign receipts, and
incurred campaign administrative expenses for the 2008 and 2009 campaigns as shown below.
(Note: 2010 was not finalized at the time of our report.)

    Campaign               Total                     Total                Administrative
      Year                Pledges                   Receipts                Expenses
      2008               $897,613                   $829,304                 $137,271

      2009               $951,022                   $882,718                 $148,440

In conducting the audit we relied to varying degrees on computer-generated data. Our review of
a sample of campaign expenses and supporting data, a sample of pledge card entries, and the
distribution of campaign contributions and related bank statements, verified that the computer-
generated data used in conducting the audit was reliable. Nothing came to our attention during
our review of the data to cause us to doubt its reliability.

We considered the campaign’s internal control structure in planning the audit procedures. We
gained an understanding of the management procedures and controls to the extent necessary to
achieve our audit objectives. We relied primarily on substantive testing rather than tests of
internal controls. The audit included tests of accounting records and such other auditing
procedures as we considered necessary to determine compliance with 5 CFR 950 and CFC
Memorandums.

To accomplish our objective concerning the 2008 campaign (Audit Guide Review), we reviewed
the CFC Audit Guide and completed the AUP checklist to verify that the IPA completed and
documented the AUP steps.



                                               3

In regard to our objectives concerning the 2009 and 2010 campaign’s budget and campaign
expenses, we accomplished the following:

   •		 Reviewed the PCFO’s applications to verify if they were complete. (2009 and 2010)
   •		 Reviewed a copy of the public notice to prospective PCFOs and the LFCC meeting
       minutes to verify that the PCFO was selected timely. (2009 only)
   •		 Traced and reconciled amounts on the PCFO’s Schedule of Actual Expenses to the
       PCFO’s general ledger. (2009 only)
   •		 Reviewed the PCFO’s budgeted expenses, the LFCC’s approval of the budget, and
       matched a sample of actual expenses to supporting documentation. We judgmentally
       selected a sample of 64 expense transactions, totaling $96,438 (from a universe of 265
       transactions, totaling $148,440), for review. (2009 only)
   •		 Reviewed the LFCC meeting minutes and verified if the LFCC authorized the PCFO’s
       reimbursement of campaign expenses (2009 only).
   •		 Compared the budgeted expenses to actual expenses and determined if actual expenses
       exceeded 110 percent of the approved budget.

To determine if the 2009 and 2010 campaign’s receipts and disbursements were handled in
accordance with CFC regulations, we reviewed the following:

   •		 A judgmental sample of 42 pledge cards (with total designations of $101,905) for review
       from a universe of 4,166 pledge cards (with a total pledged of $951,022) from the
       PCFO’s 2009 campaign Pledge Card Report and compared the pledge information from
       the report to the actual pledge cards. Specifically, we judgmentally selected the 30
       pledge cards with the highest total amount pledged, the 6 pledge cards with the highest
       undesignated pledge amounts, and 6 additional pledge cards based on past experience.
       (2009 only)
   •		 Cancelled distribution checks to verify that the appropriate amount was distributed in a
       timely manner. (2009 only)
   •		 One-time disbursements to verify that the PCFO properly calculated pledge loss and
       disbursed the funds in accordance with the ceiling amount established by the LFCC.
       (2009 only)
   •		 The PCFO’s most recent listing of outstanding checks to verify that the PCFO was
       following its policy for such checks. (2009 only)
   •		 The Pledge Notification Letters to verify that the PCFO notified the CFC agencies of the
       designated and undesignated amounts due them by the date required in the regulations.
   •		 The donor list letters sent by the PCFO to organizations to verify the letters properly
       notify the organization of the donors who wish to be recognized. (2009 only)
   •		 CFC receipts and distributions from the PCFO’s campaign bank statements, campaign
       receipts and agency disbursements, and campaign expense support to verify whether the
       PCFO accurately recorded and disbursed all 2009 campaign receipts and disbursements.
       (2009 only)
   •		 All bank statements used by the PCFO to verify that the PCFO was properly accounting
       for and distributing funds. (2009 and 2010)
   •		 The PCFO’s cutoff procedures and bank statements to verify that funds were allocated to
       the appropriate campaign year. (2009 and 2010)


                                               4

To determine if the LFCC and PCFO were in compliance with CFC regulations in regards to
eligibility for the 2009 and 2010 campaigns, we reviewed the following:

   •		 The public notice to prospective charitable organizations to determine if the LFCC
       accepted applications from organizations for at least 30 days. (2009 only)
   •		 The Campaign charity lists to determine if they contained all required information. (2009
       and 2010)
   •		 The process and procedures for the application evaluation process. (2009 only)
   •		 Sample eligibility letters to verify they were properly sent by the LFCC. (2009 only)
   •		 The LFCC’s processes and procedures for responding to appeals from organizations.
       (2009 only)

To determine if the PCFO was in compliance with the CFC regulations as a federation (United
Way of Ventura County) for the 2009 campaign, we reviewed the following:

   •		 Data reported on the CFC Receipts Schedule with supporting documentation to verify
       whether receipts were properly recorded.
   •		 The CFC Distribution Schedule to ensure that the United Way of Ventura County did not
       disburse any funds to member agencies not participating in the CFC.
   •		 The United Way of Ventura County’s agreements with its member agencies to determine
       if the fees were reasonable and supported.

Finally, to determine if the policies and procedures related to the detection and prevention of
fraud and abuse were adequate we reviewed the PCFO’s responses to our fraud and abuse
questionnaire.

The samples mentioned above, that were selected and reviewed in performing the audit, were not
statistically based. Consequently, the results could not be projected to the universe since it is
unlikely that the results are representative of the universe taken as a whole.




                                                 5

              III. AUDIT FINDINGS AND RECOMMENDATIONS


The PCFO and the LFCC did not respond to the draft report, despite several requests by us for a
response. Consequently, no comments from them are included in this report. As a result of
difficulties encountered with the PCFO during the performance of this audit and the lack of
cooperation received following the issuance of the draft audit report, the OIG strongly suggests
that the OCFC consider sanctions against the PCFO and the stripping of its ability to participate
in the CFC in the future.

Please note, the United Way of Ventura County (UWVC), which served as the PCFO for each
year of our audit (2008 through 2010), was not selected to continue as the PCFO beginning with
the 2011 campaign. As a result, this final report offers no recommendations on audit issues that
could only be remedied if the UWVC continued as the PCFO for the 2011 campaign.

Additionally, we suggest that the OCFC ensure that the LFCC understands its responsibilities as
the committee charged with coordinating the campaign and determine if that committee has the
time necessary to properly administer the campaign. If not, we suggest that the OCFC take steps
to replace the LFCC with members that have the time and are willing to properly administer the
campaign, or that the campaign be merged with another campaign that can administer it properly.

A.   AUDIT GUIDE REVIEW

     1.    Agreed-Upon Procedures Not in Compliance with the Audit Guide               Procedural

           The Independent Public Accountant (IPA) utilized by the PCFO and the LFCC to
           complete the agreed-upon procedures (AUP), as required by the Office of Personnel
           Management’s (OPM) OCFC, did not properly complete its review.

           The Audit Guide contains specific procedures to be followed during the examination
           by the IPA, with the primary objective of determining the LFCC and the PCFO’s
           compliance with 5 CFR Part 950 and OPM guidance.

           We reviewed the IPA’s working papers and report to ensure that it properly followed
           the AUPs as stated in the Audit Guide and that it properly reported audit issues as a
           result of its review. Our review identified four areas where the IPA did not comply
           with the requirements of the Audit Guide. Specifically, we identified the following
           issues:

           •		 Pledge Tracking System Step 3 required the IPA to report as a finding any
               instance where the PCFO did not prepare a spreadsheet to track and analyze
               payroll receipts by agency and payroll office. In its work papers, the IPA
               identified that the “PCFO has no Federal payroll offices tracking procedures to
               track receipts from payroll offices….” Although the IPA identified that the PCFO
               did not track receipts properly, it did not report this as a finding within its audit
               report.



                                                 6

            •		 The LFCC Processes Step 1 required the IPA to report as a finding instances
                where the PCFO did not include signed statements in its application for PCFO
                certifying its understanding of the Federal regulations [5 CFR 950.105 (c)(2)].
                Our review of the 2007 1 application (same application reviewed by the IPA and
                for our audit) determined that the PCFO application did not include the complete
                statements required by the regulations. However, the IPA did not report this as a
                finding.

            •		 Receipt and Disbursement of Funds Step 7 required the IPA to review the one­
                time disbursements made by the PCFO. The IPA did not complete the steps
                relating to the one-time disbursements, stating that they were not applicable.
                However, our review of the documentation included in the IPA’s report
                determined that the PCFO did make one-time disbursements for the 2008
                campaign.

            •		 The PCFO as a Federation steps of the Audit Guide required the IPA to review
                the PCFO’s operations as a federation. Discussion with the PCFO determined
                that the UWVC was a federation during the 2008 campaign. However, the IPA
                did not complete the steps relating to the PCFO as a federation, stating that the
                steps were not applicable. A discussion with the IPA during our review of the
                work papers determined that the IPA did not fully understand the CFC and its
                related regulations and that the oversights noted were a result of the lack of
                understanding.

            As a result of the IPA’s lack of understanding of the CFC and its related regulations,
            the OCFC, the LFCC, and the PCFO were not alerted to areas of concern which could
            lead to donor designations not being properly handled and/or disbursed.

            Recommendation 1

            We recommend that the OCFC and the LFCC ensure that the IPA contracted by the
            PCFO fully understands the CFC and its related regulations so that it may complete
            the Audit Guide’s AUPs correctly and completely.

            Recommendation 2

            We recommend that the OCFC ensures that the LFCC and the PCFO meet with the
            IPA prior to and during the AUP engagement to discuss the Audit Guide steps, and
            encourage the IPA to ask questions of the PCFO or the OCFC if it is unsure of how to
            complete any of the required procedures.




1
  In 2007, the UWVC applied as PCFO for a three year period (2007 through 2009). Therefore, the 2007 application
is applicable to both our review of the 2009 campaign and the IPA’s review of the 2008 campaign.


                                                       7

B.    BUDGET AND CAMPAIGN EXPENSES

      1.     Expenses Charged to the Wrong Campaign                                                     $16,687

             The PCFO charged the 2009 campaign for 15 expenses that were related to the 2008
             or 2010 campaigns. As a result, the 2009 campaign expenses were overstated and the
             amounts disbursed to member agencies and federations were reduced by $16,687.

             5 CFR 950.106 (b) states that the PCFO may only recover campaign expenses from
             receipts that are collected for that campaign.

             We reviewed supporting documentation for a sample of 64 expenses, totaling
             $96,438, to ensure that the expenses were CFC-related expenses, actual costs, and
             charged to the correct campaign. Our review identified 15 expenses charged
             incorrectly to the 2009 campaign.

             Specifically, we found $8,038 2 in expenses relating to the 2008 campaign and $8,649
             relating to the 2010 campaign that were charged to the 2009 campaign. Based on
             discussions with the PCFO, these expenses were charged to the 2009 campaign based
             on the date incurred over a 12 month period and not based on the campaign they were
             related to. However, the campaign period for the CFC is not a 12 month period, but a
             period that begins before the start of campaign solicitations for donations and runs
             through the final disbursement of funds to charities of the campaign, a period which
             can span approximately 24 months.

             As a result of the PCFO’s lack of understanding of the true campaign expense period,
             $16,687 in campaign expenses relating to either the 2008 or the 2010 campaign were
             charged to the 2009 campaign.

             Recommendation 3

             We recommend that the OCFC direct the PCFO to reimburse and redistribute to the
             2009 campaign $8,649 (and thereby charge the 2010 campaign the same amount) for
             campaign expenses related to the 2010 campaign that were charged to the 2009
             campaign.

      2.     PCFO Application Missing Required Language                                             Procedural

             The PCFO application accepted by the LFCC did not include all of the statements
             required by the Federal regulations.

             5 CFR 950.105 (c) (2) states that any federation, charitable organization or
             combinations thereof wishing to be selected for the PCFO must submit a timely


2
  Since the 2008 campaign is closed, we are not including a recommendation related to the $8,038 undercharged to
that campaign.


                                                        8

     application in accordance with the deadline set by the LFCC, that includes a
     statement pledging to:
         (i) administer the CFC fairly and equitably,
         (ii) conduct campaign operations, such as training, kick-off and other events, and
         fiscal operations, such as banking, auditing, reporting and distribution separate
         from the applicant’s non-CFC operations, and
         (iii) abide by the directions, decisions, and supervision of the LFCC and/or
         Director.

     We reviewed the PCFO’s 2007 application (per footnote 1, the 2007 application was
     applicable to the 2009 campaign) to determine if each of the statements required by
     the Federal regulations was included. Our review found that the UWVC wrote one of
     the statements as “Pledges to conduct United Way of Ventura County non-CFC
     operations separately from campaign operation,” which should have been written as
     “conduct campaign operations, such as training, kick-off and other events, and fiscal
     operations, such as banking, auditing, reporting and distribution separate from the
     applicant’s non-CFC operations.” Additionally, the UWVC did not include the words
     “directions” and “and/or Director” in the statement that it would “be subject to the
     decisions and supervision of the LFCC and/or Director.” The LFCC did not realize
     that the language in the 2007 application did not include all of the required language.
     However, our review of the 2010 application, approved by the LFCC, found that the
     required language was stated correctly.

     By accepting an application that did not include all of the required statements in the
     application letter, the LFCC approved a PCFO which did not state that it will abide by
     all of those things required of it by the Federal regulations.

     Recommendation 4

     We recommend that the OCFC ensures that the LFCC adequately reviews future
     PCFO applications, ensuring that all required language is included and correct.

3.   PCFO Solicitation                                                          Procedural

     The public notice soliciting for a PCFO was not posted in a timely manner.
     Additionally, the application period was not open for the minimum number of days.

     According to the CFC Calendar of Events, the deadline for PCFO application
     solicitations was February 15, 2007, and the deadline for LFCC’s to select a PCFO
     was March 15, 2007.

     In addition, 5 CFR 950.104 (c) states that the PCFO application period must be open
     a minimum of 21 calendar days.

     We reviewed the public notice to solicit for potential PCFO applicants for the 2007
     campaign (per footnote 1, the solicitation was for a multi-year agreement which



                                          9

     included the 2009 campaign) to determine if the solicitation was posted timely and if
     it was open for the required time frame. Our review found that the opening date of
     the application period began after the deadline (February 15, 2007) set in the CFC
     Calendar of Events. Additionally, the solicitation was only open for 17 calendar days
     (February 21, 2007 through March 9, 2007). Furthermore, we noted that if the
     solicitation had been open for the minimum required number of days, ending
     March 13, 2007, the LFCC would have only had two calendar days to review the
     applications and select a PCFO by the deadline stipulated in the CFC Calendar of
     Events. Discussions with the PCFO determined that the late posting of the public
     notice was an oversight on its part and that it wasn’t open for the required number of
     days to allow the LFCC the ability to make the selection by the required date.

     As a result of not posting the solicitation for PCFO timely and maintaining the
     application period for the minimum period of time, the LFCC did not give applicants
     sufficient time to apply, and itself sufficient time to review applications.

     Recommendation 5

     We recommend that the OCFC ensures that the LFCC follows the dates set forth in
     the CFC Calendar of Events for the PCFO solicitation in all future campaigns.

     Recommendation 6

     We recommend that the OCFC ensures that the LFCC keeps the application period
     open for at least the minimum number of calendar days required by the Federal
     regulations.

4.   Approval of Campaign Expense Reimbursement                                Procedural

     The PCFO did not submit, nor did the LFCC approve, a request for the


     reimbursement of the 2009 campaign expenses to the PCFO.



     5 CFR 950.104 (b) (17) states that it is the responsibility of the LFCC to authorize
     “to the PCFO reimbursement of only those campaign expenses that are legitimate
     CFC costs and are adequately documented.” Additionally, 5 CFR 950.106 (a) states
     that the PCFO shall recover campaign expenses, approved by the LFCC, which
     reflect the actual costs of administering the campaign.

     Our review of LFCC meeting minutes did not identify where the LFCC discussed,
     reviewed, or approved the reimbursement of the 2009 campaign expenses to the
     PCFO. Additionally, discussion with the PCFO indicated that it did not understand
     the requirement to have the expenses approved by the LFCC because it felt that as
     long as the total expenses were held to near budget levels and that the expenses did
     not exceed the budget by 10 percent, that the budget approval gave it reimbursement
     authority.




                                         10 

          As a result of not reviewing and approving the reimbursement of the 2009 campaign
          expenses, the LFCC ran the risk of unrelated expenses being charged to the agencies
          and federations of the campaign. Additionally, by not submitting its expenses for
          approval before their reimbursement, the PCFO did not allow the LFCC to exercise
          its authority over the campaign to ensure that only legitimate CFC costs are charged
          to the campaign.

          Recommendation 7

          We recommend that the OCFC ensures that the LFCC knows and understands its
          responsibility to authorize and approve the PCFO’s reimbursement of actual
          campaign expenses for all future CFC campaigns.

C.   CAMPAIGN RECEIPTS AND DISBURSEMENTS

     1.   Outstanding Disbursement Amount                                               $92,940

          The PCFO did not properly allocate CFC funds to the appropriate campaigns and did
          not properly account for one month of CFC receipts, which resulted in an outstanding
          balance for the 2009 campaign of $92,940.

          5 CFR 950.901 (i) (2) states that the PCFO is responsible for the accuracy of
          disbursements it transmits, and that at the end of the disbursement period the PCFO’s
          CFC account balance shall be zero.

          Our review found an outstanding amount of $92,940 which remains to be disbursed to
          the 2009 campaign. This occurred as result of two factors. First, the PCFO used
          incorrect cutoff procedures to allocate CFC funds to the appropriate campaign.
          Instead of reviewing each account deposit separately to determine the appropriate
          campaign to apply it to, the PCFO used February 1st as a cutoff date to determine
          which campaign to allocate funds to. Second, a full month of CFC deposits was
          inadvertently left off of the PCFO’s tracking spreadsheet and was not disbursed to the
          members of the 2009 campaign.

          As a result of incorrect cutoff procedures and a deposit omission, the members of the
          2009 campaign are due a disbursement of $92,940.

          Recommendation 8

          We recommend that the OCFC and the LFCC ensure that the PCFO disburses
          $92,940 to the members of the 2009 campaign.




                                              11 

2.   One-Time Disbursement Calculation                                              $4,303

     The PCFO incorrectly calculated the one-time disbursement amounts for agencies and
     federations receiving one-time disbursements from the 2009 campaign, resulting in
     overpayments of $4,303 to those agencies.

     5 CFR 950.901 (i) (3) states that the PCFO may make one-time disbursements to
     organizations receiving minimal donations from Federal employees. It goes on
     further to state that the PCFO may deduct the proportionate amount of each
     organization’s share of the campaign’s administrative costs and the average of the
     previous three-years’ pledge loss from the one-time disbursement. Additionally, CFC
     Memorandum 2008-09 provides a detailed explanation of how to calculate one-time
     disbursement amounts.

     We reviewed the PCFO’s calculation of the amounts paid to the agencies and
     federations receiving one-time disbursements to determine if the amounts paid were
     correct. Our review found that the PCFO’s method of determining one-time
     disbursement amounts was incorrect. The PCFO’s method of determining one-time
     disbursements consisted of total pledges less the three-year average percentage of
     pledges not received, and the three-year average of campaign expenses incurred. The
     appropriate method of determining one-time disbursement amounts only deducts the
     proportionate amount of the current campaign’s administrative costs. Discussion
     with the PCFO determined that it did not understand the proper method of
     determining one-time disbursement as outlined in the regulations and was continuing
     practices used over many campaigns.

     Using the method of calculating one-time disbursements outlined in CFC
     Memorandum 2008-09, we determined that the PCFO made an overpayment to those
     agencies receiving one-time disbursements of $4,303. This consequently led to an
     underpayment of the same amount to those agencies receiving monthly payments
     from the 2009 campaign, who should be made whole. As the accuracy of CFC
     disbursements is the responsibility of the PCFO, the $4,303 should be reimbursed
     from its private funds. However, it may attempt recovery from the agencies to which
     the overpayments were made.

     As a result of the PCFO’s misapplication of the method for determining the amounts
     of one-time disbursements outlined in the Federal regulations, the agencies receiving
     those disbursements were overpaid $4,303 and those receiving monthly
     disbursements were underpaid by the same amount.

     Recommendation 9

     We recommend that the OCFC and the LFCC direct the PCFO to reimburse the 2009
     campaign $4,303 from its private funds and distribute that amount among the
     agencies and federations that recieved monthly payments.




                                         12 

3.   Agency with No Disbursement                                                      $231

     The PCFO incorrectly recouped an overpayment made to an agency in a prior
     campaign by reducing the agency’s 2009 campaign distribution, and in doing so, did
     not make a payment to the agency for the 2009 campaign when donors made
     designations to that agency.

     5 CFR 950.105 (d) (1) states that the PCFO is responsible for honoring employee
     designations. Also, 5 CFR 950.106 (b) states that the PCFO may only recover
     campaign expenses from receipts collected for that campaign and that it cannot
     recover expenses from another campaign. Therefore, it is our opinion that the PCFO
     may not recover campaign disbursement overpayments from receipts of future
     campaigns.

     Furthermore, 5 CFR 950.901 (i) (2) states that the PCFO is responsible for the
     accuracy of disbursements that it transmits to recipients.

     Our review of the PCFO’s disbursements for the 2009 campaign identified one
     agency which received designations from donors yet did not receive a payment.
     Discussions with the PCFO determined that the agency, United Way International,
     was inadvertently overpaid during the 2008 campaign. The PCFO determined that
     this overpayment was greater than the amount it was to receive in the 2009 campaign,
     so it withheld the entire 2009 payment rather than pursue recovery of the
     overpayment from the 2008 campaign. The Federal regulations do not allow for a
     PCFO to recoup overpayments made from one campaign from the funds of another
     campaign, and they also state that the PCFO is responsible for the accuracy of its
     disbursements. Therefore, the PCFO’s action in withholding payment was in
     violation of the Federal regulations because by doing so the PCFO is not honoring the
     pledges designated by donors to the 2009 campaign.

     As a result of the PCFO’s attempt to recover overpayments made in prior campaigns,
     it commingled funds of two different campaigns, failed to honor donor designations,
     and underpaid an agency $231.

     Recommendation 10

     We recommend that the OCFC and the LFCC direct the PCFO to pay the agency to
     which no payment was made (United Way International), the $231 they are due for
     the 2009 campaign.

4.   Pledge Card Errors                                                        Procedural

     Our pledge card review identified four errors where either information was input
     incorrectly into the PCFO pledge card database, causing the donor’s wishes to not be
     honored, or the donor failed to sign the pledge card to authorize payroll deductions.




                                         13 

     5 CFR 950.105 (d) (1) states that the PCFO is responsible for “Honoring employee
     designations.” Additionally, 5 CFR 950.105 (d) (6) states that the PCFO is
     responsible for “Honoring the request of employees who indicate on the pledge form
     that their names, contact information and contribution amounts not be released to the
     organization(s) that they designate” and conversely to release employee information
     they indicate they wish to be released.

     We reviewed a sample of 42 pledge cards to determine whether they were entered
     into the PCFO’s pledge card database correctly. Specifically, we compared the actual
     pledge card to the pledge card report to determine if the following items were entered
     correctly: donor name, each charity code and amount(s) donated, total amount
     donated, and the donor’s choice to release personally identifiable information. Our
     review identified four pledge cards with errors. Specifically, we found:

        •		 One pledge card where the PCFO incorrectly input an agency code into the
            pledge card database;
        •		 One pledge card where the donor did not sign to authorize a payroll
            deduction;
        •		 One pledge card where the donor’s request to release information was not
            input correctly; and
        •		 One pledge card where the PCFO incorrectly determined that the agency code
            selected by the donor was invalid and, utilizing a Loaned Executive, had the
            donor select a different agency code.

     Discussion with the PCFO regarding the errors identified determined that they were
     the result of accidental oversights on its part.

     As a result of accidental pledge card input errors, the PCFO did not accurately honor
     all donors’ wishes as required by the regulations. Additionally, as a result of
     including unauthorized payroll deductions in the pledge card database, the PCFO
     could overstate the amounts designated to agencies and skew the percentage of
     undesignated funds distributed to agencies.

     Since the UWVC is no longer the PCFO for this campaign, we are not making a
     recommendation for this finding.

5.   Untimely Initial Campaign Disbursements		                                 Procedural

     The PCFO did not make its initial CFC disbursements for the 2009 campaign by
     April 1, 2010, as required by the Federal regulations.

     5 CFR 950.901 (i) (2) states that the PCFO “will distribute all CFC receipts beginning
     April 1, and quarterly thereafter.”

     Our review found that the PCFO made initial disbursements for the 2009 campaign
     on May 1, 2010. The PCFO did not make the initial disbursement by April 1 because


                                         14 

     of a UWVC Board of Directors directive that the UWVC must maintain three months
     of cash reserves on hand. At the time disbursements should have been made, the
     necessary reserves were not available. The PCFO informed us that its Board has
     since revised the directive to be two and a half months of reserves and that the 2010
     campaign funds went out on April 1, 2011, as required by the regulations.

     The CFC funds held by the PCFO should not have been subject to any directives
     issued by the UWVC’s Board of Directors because those monies did not belong to the
     UWVC nor did the Board have purview over the use of those monies.

     As a result of the PCFO’s misunderstanding of its Board of Director’s authority over
     the disbursement of CFC funds, the agencies and federations of the 2009 campaign
     did not receive their initial disbursements in a timely manner in accordance with the
     Federal regulations.

     Since the UWVC is no longer the PCFO for this campaign, we are not making a
     recommendation for this finding.

6.   Incorrect Cutoff Procedures                                               Procedural

     The cutoff procedures utilized by the PCFO were not in accordance with the
     directives issued by the OCFC and did not accurately allocate CFC receipts to the
     correct campaign in all cases.

     According to CFC Memorandum 2006-05, beginning with the 2005 campaign all
     PCFOs were to begin tracking CFC payroll receipts by payroll office and thereby
     applying those receipts to the appropriate campaign.

     Our review found that the PCFO incorrectly used February 1st as a cutoff date for all
     incoming CFC payroll receipts. The PCFO stated that it would start each new
     campaign with payroll deposits beginning with any received on or after February 1st
     through January 31st of the following year. The PCFO stated that it did not know of
     the directive issued by the OCFC in Memorandum 2006-05, and that it used this
     cutoff method for ease of tracking and accounting for incoming CFC payroll deposits.

     As a result of not following directives issued by the OCFC regarding properly
     applying incoming CFC receipts to the correct campaign, the donor’s wishes for
     distribution of their specific designations were not accurately honored.

     Since the UWVC is no longer the PCFO for this campaign, we are not making a
     recommendation for this finding.

7.   Approval of One-Time Disbursements                                        Procedural

     The PCFO did not request approval from the LFCC to make one-time disbursements,
     nor did it obtain approval of the ceiling amount from the LFCC. Additionally, the



                                         15 

       PCFO did not request approval to make a one-time disbursement to two agencies that
       had designations in excess of the threshold it set.

       5 CFR 950.901 (i) (3) states that the PCFO “may make one-time disbursements to
       organizations receiving minimal donations from Federal employees. The LFCC must
       determine and authorize the amount of these one-time disbursements.”

       We reviewed the LFCC meeting minutes to determine if the PCFO obtained approval
       of its one-time disbursement ceiling amount and the payment of the one-time
       disbursements. Our review did not identify any mention of the LFCC’s approval of
       one-time disbursements or ceiling amounts for the 2009 campaign. Discussion with
       the PCFO confirmed that it did not request approval from the LFCC for its one-time
       disbursement ceiling amount and to make one-time disbursements. The PCFO
       expressed that it did not understand that requesting approval for both making the
       disbursements and the ceiling amount was its responsibility and, therefore, did not
       request the LFCC’s approval.

       Additionally, we identified two agencies (Make a Wish Foundation and ARC of
       Ventura County) which received one-time disbursements even though both agencies
       had gross designations in excess of the $5,000 threshold used by the PCFO.
       Discussion with the PCFO determined that the Make a Wish Foundation verbally
       requested that it receive a one-time disbursement to assist its charitable giving at the
       time. This “special” one-time disbursement was internally approved by the PCFO.
       However, the LFCC was not approached for approval. The one-time disbursement to
       ARC of Ventura County was identified close to the issuance of the draft report and,
       consequently, we did not have the opportunity to obtain a detailed cause for the error
       from the PCFO. Instead, our draft report requested that the PCFO research this error
       and provide an explanation as to why it occurred in its response to the draft report.
       However, since the PCFO did not provide a response to the draft report, we did not
       receive a detailed cause for this error.

       As a result of not requesting approval of one-time disbursements, the PCFO did not
       permit the LFCC to exercise its discretion over the operation of the campaign.

       Since the UWVC is no longer the PCFO for this campaign, we are not making a
       recommendation for this finding.

8.		   Untimely Designated and Undesignated Funds Reports                          Procedural
       and Donor Lists

       The designated and undesignated funds reports and donor lists were not sent to the
       agencies and federations of the 2010 campaign by March 15, 2011, as required by the
       Federal regulations.

       5 CFR 950.901 (i) (1) states that the “PCFO shall notify the federations, national and
       international organizations, and local organizations as soon as practicable after the



                                            16 

          completion of the campaign, but in no case later than a date to be determined by
          OPM, of the amounts, if any, designated to them and their member agencies and of
          the amounts of undesignated funds, if any, allocated to them. The date will be part of
          the annual timetable issued by the Director….” According to the CFC Calendar of
          Events, March 15, 2011 is the “Deadline for PCFOs to notify 2010 CFC-participating
          charities and federations of the total designations, share of undesignated amounts, and
          the names and contact information for donors who authorized the release of their
          information.”

          Our review found that the PCFO sent the notification letters to the agencies and
          federations of the 2010 campaign on April 4, 2011. Discussion with the PCFO
          determined that the letters were not sent timely because of an oversight on its part.

          As a result of not providing the member agencies and federations of the 2010
          campaign the designated and undesignated fund reports and donor lists by the date
          required by the Federal regulations, the agencies and federations were not given
          timely information necessary to properly plan and budget for the coming year.

          Since the UWVC is no longer the PCFO for this campaign, we are not making a
          recommendation for this finding.

D.   ELIGIBILITY

     1.   Incomplete Agency and Federation Applications		                             Procedural

          The LFCC accepted applications from six agencies and federations which did not
          provide sufficient documentation to be accepted for participation in the 2009
          Campaign. Additionally, we did not identify any applications where we could
          determine that it was the LFCC that made the actual eligibility decision.

          We selected eight applications (five local federations and three local agencies) for
          review to determine whether each agency or federation provided the appropriate
          documentation and made the appropriate certifications to be a member of the
          campaign. We found 14 deficiencies during our review of the applications. We
          identified 10 deficiencies related to local federations and 4 deficiencies related to
          local agencies. Additionally, we were unable to locate an application from one local
          federation selected for review. Specifically, we identified the following deficiencies:

             •		 We identified one application where the local agency did not certify or
                 demonstrate that it had a substantial local presence in the geographical area
                 covered by the local campaign.

                 5 CFR 950.204 (b) (1) states that an organization wishing to be listed in the
                 charity list is required to “demonstrate to the satisfaction of the LFCC of the
                 appropriate local campaign, that it has a substantial local presence in the
                 geographical area covered by the local campaign....”



                                               17 

   •		 We identified three applications where the local federation did not include a
       listing of at least 15 member organizations that were found eligible to
       participate in the CFC.

       5 CFR 950.303 (c) states that a federation applying for participation in the
       CFC must ensure that it has at least 15 member organizations, other than
       itself, that meet all of the eligibility requirements of 5 CFR 950.202, 950.203
       and 950.204 and that it must re-establish this eligibility each year.

   •		 We identified one application where the local federation’s audited financial
       statements did not indicate whether it accounts for its funds on an accrual
       basis in accordance with generally accepted accounting principles.
       Additionally, the audit report submitted with the application stated that the
       organization “lacked complete accounting records relating to receivables and
       has insufficient internal controls regarding accounting records. Accordingly,
       it was not practicable for us to extend our audit of such items beyond the
       amounts recorded.”

       5 CFR 950.203 (a) (2) states that an organization applying for inclusion in the
       CFC must certify that “it accounts for its funds on an accrual basis (cash,
       modified cash, modified accrual, and any other methods of accounting are not
       acceptable) in accordance with generally accepted accounting principles.…”

   •		 All applications (8) reviewed did not include any indication of LFCC review
       or determination of eligibility. We had the opportunity to perform a cursory
       review of all of the other applications submitted for the 2009 campaign and
       did not identify any applications where an LFCC review or determination of
       eligibility was indicated.

       5 CFR 950.104 (b) (3) states that it is the LFCC’s responsibility to determine
       the eligibility of all local organizations applying for participation in the local
       campaign and that this responsibility may not be delegated to the PCFO.

   •		 We were unable to locate the application for one federation which participated
       in the 2009 campaign. Therefore, we could not determine if this federation
       qualified for campaign participation.

       5 CFR 950.204 (a) states that the LFCC shall establish an annual application
       process consistent with the regulations for organizations that wish to be listed
       in the charity list. Therefore, those not submitting applications should not be
       allowed to participate. Additionally, 5 CFR 950.604 states that “Federations,
       PCFOs and other participants in the CFC shall retain documents pertinent to
       the campaign for at least three completed campaign periods.”

Discussion with the LFCC regarding these deficiencies determined that the LFCC had
discovered its lack of procedures and documentation review. The LFCC stated that,


                                     18 

          beginning with the 2011 campaign, it had instituted new procedures to ensure that all
          applications included the required information and that it completely documented its
          review by signing each application review sheet and indicating approval or denial.

          As a result of allowing agencies and federations to submit an incomplete or invalid
          application for participation in the CFC, the LFCC potentially allowed organizations
          which did not meet the regulation requirements to participate. Additionally, by not
          including an indication of its approval or denial on any application review sheets, we
          could not determine if it was the LFCC that made the eligibility determinations.

          Recommendation 11

          We recommend that the OCFC ensures that the LFCC has instituted procedures to
          review the local eligibility applications to determine if they contain all required
          certifications and attachments, and that any applications with deficiencies be denied
          participation into the local campaign.

          Recommendation 12

          We recommend that the OCFC ensures that the LFCC uses the application review
          sheets to review the applications and indicate their eligibility decisions on the review
          sheet with a signature.

E.   PCFO AS A FEDERATION

     Our review of the PCFO’s activities as a federation showed that it complied with the
     applicable provisions of 5 CFR 950.

F.   FRAUD AND ABUSE

     Our review of the PCFO’s fraud and abuse policies and procedures indicated that they
     appeared reasonably sufficient to detect and deter potential fraud and abuse activities.




                                               19 

             IV. MAJOR CONTRIBUTORS TO THIS REPORT
Special Audits Group

                , Senior Team Leader


               Auditor



                 , Group Chief,




                                        20 

